No. 20-138

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, et al.,
Petitioners,
v.
SIERRA CLUB, et al., Respondents.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, et al.,
Petitioners,
v.
STATES OF CALIFORNIA AND NEW MEXICO, et al.,
Respondents.

CERTIFICATE OF ELECTRONIC SERVICE
I, Aimee Feinberg, Deputy Solicitor General, a member of the Bar of this
Court, hereby certify that on January 19, 2021, consistent with this Court’s order of
April 15, 2020 and the parties’ consent, an electronic copy of the Unopposed Joint
Motion of Respondents for Divided Argument Time in the above-entitled case was
served by electronic mail upon:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioners

Dror Ladin
ACLU Foundation
125 Broad Street, 18th Fl.
New York, NY 10004
dladin@aclu.org
Counsel for Sierra Club Respondents

I further certify that all parties required to be served have been served.
/s/ Aimee Feinberg
AIMEE FEINBERG
Deputy Solicitor General
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov
Counsel of Record for the State Respondents

